                                                       UNITED STATES DEPARTMENT OF COMMERCE
                                                       Office of Inspector General
                                                       Washington, D.C. 20230




February 14, 2014

MEMORANDUM FOR:             Lawrence E. Strickling
                            Assistant Secretary for Communications and Information
                            National Telecommunications and Information Administration


FROM:                       Annc.Eilersj~ ~                   fL
                            Principal Assistant Inspector General for Audit and Evaluation

SUBJECT:                    Audit of BTOP Inventory Excess

We are conducting an audit of Broadband Technology Opportunities Program (BTOP) inventory
of excess equipment. Our objectives will be to ( I) determine if grantees purchased equipment
outside of the needs of the program for commercialization (i.e., warehousing equipment),
(2) assess procedures t aken by NTIA to identify recipients maintaining excess inventory,
and (3) evaluate NTIA's procedures for disposition of excess BTOP award inventory, including
construction equipment and vehicles.

Our fieldwork will be conducted at NTIA's headquarters in Washington, DC, and other locations
as needed.

We are working with NTIA's audit liai son to schedule an entrance conference. Should you have
any questions, please contact me at (202) 482-2754 or Johnny Dawsey, Supervisory Auditor,
Recovery Act Task Force, at (404) 730-2056.


cc:    Douglas Kinkoph, Associate Administrator (Acting), Office of Telecommunications
         and Information Applications, NTIA
       Aimee Meacham, Director, Program Services, BTOP
       Kathy Smith, Chief Counsel, NTIA
       Milton Brown, Audit Liaison, NTIA
